A1

SUPREhfp COURT OF NEW JERSEY
C-607 September term 2019
083394
Michael S. Barth
Plaintiff-Petitioner,
FIEED FEB 20 2020 s/Heather J. Bakers C^ERfC
v.
Bernards Township Planning Board,
Defendant-Respondent.
A petition for certification of the judgment in A000744-18 having been submitted to this Court, and the
Court having considered the same;
It is ORDERED that the petition for certification is
denied, with costs.
WITNESS the Honorable Jaynee La Vecchia, Presiding
Justice, at Trenton, this 19th day of February, 2020.
s/s Heather J. Baker/s
CLERK OF THE SUPREME COURT

A2

SUPREME COURT OF NEW JERSEY
M-1092 September term 2018
082540
Michael S. Barth
Plaintiff-Movant,
FILED May 24 2019 s/Heather J. Baker/s CLERK
v.
ORDER
Bernards Township Planning Board,
and the Islamic Society of Basking Ridge, Inc.,
Defendants-Respondents.
It is ORDERED that the motion to stay the Appellate
Division’s briefing schedule is dismissed as moot, the Court
having filed its opinion in Piscitelli v. City of Garfield
Zoning Board of Adjustment N. J.___(2019).
WITNESSjhe ffonorable Stuart Rabper, Chief
Justice, at Trenton, this 24th day of May, 20} 9.
s/s Heather J. Baker/s
CLERK OF THE SUPREME COURT

A3

Filed, Clerk of the Appellate Division, July 31, 2019
Order on Motion
Superior Court of New Jersey
Michael S. Barth
Appellate Division
v
Docket No A-000744-18T3
Bernards Township
Motion No. M-008072-18
Planning Board
Before Part D
Judge(s) Carmen H. Alvarez
Hany A. Mawla
Motions Filed: 07/03/2019 By: Michael Barth
Answer(s)
07/18/2019 By: Bernards Township
Planning Board
07/18/2019 By; Islamic Society of Basking
Ridge, Inc.
Submitted to Court: July 22, 2019
OkDER
This matter having been duly presented to this court,
it is, on this 30th day of July, 2019, hereby ordered as
follows:
Motion by Appellant
Motion tq File these pleadings of July 2, 2019 as within time
- DENIpD
Motion to Extent time to File these pleadings of July 2, 2019
- DENIED
Motion for Reconsideration of the Appellate Division June
123,2019 Orders - DENIED
Motion to file June 17, 2019 pleadings as within time DENIED
Motion to extend the tirpe to file to the June 3, 2019 DENIED
Motion to file the June 3, 2019 Brief and Appendix DENIED
Motion to Reinstate Appeal - DENIED
For the Court: s/Carmen H. Alvarez, P.J.A.D.

A4

Filed, Clerk of the Appellate Division, June 12, 2019
Order on Motion
Superior Court of New Jersey
Michael S. Barth
Appellate Division
v
Docket No A-000744-18T3
Bernards Township
Motion No. M-007107-18
Planning Board
Before Part D
Judge(s) Carmen H. Alvarez
Hany A. Mawla
Motions Filed: 05/20/2019

By: Bernards Township
Planning Board, Islamic
Society of Basking Ridge, Inc.

Answer(s) 05/28/2019

By: Michael Barth

Submitted to Court: June 10, 2019
ORDER
This matter having been duly presented to this court,
it is, on this 12th day of June, 2019, hereby ordered as
follows:
Motion by Respondent
Motion to Dismiss appeal for failure to prosecute (Joint
Motion by Defendants/Respondents)
GRANTED
Supplemental
For the Court: s/Carmen H. Alvarez, P.J.A.D.

A5

Filed, Clerk of the Appellate Division, June 12, 2019
Order on Motion
Michael S. Barth
Superior Court of New Jersey
v
Appellate Division
Bernards Township
Docket No A-000744-18T3
Planning Board
Motion No. M-007107-18
Before Part D
Judge(s) Carmen H. Alvarez
Hany A. Mawla
Motion Filed 06/04/2019

By: Michael Barth

Answer(s) Filed: 06/07/2019 By: Islamic Society of
Basking Ridge, Inc.

Submitted to Court: June 10, 2019
ORDER
This matter having been duly presented to this court,
it is, on this 12th day of June, 2019, hereby ordered as
follows:
Motion by Appellant
Motion for Reconsideration - DENIED
Motion to file as within time a motion for Reconsideration DENIED
Supplemental
For the Court: s/Carmen H. Alvarez, P.J.A.D.

A6

Filed, Clerk of the Appellate Division, February 08, 2019
Order on Motion
Michael S. Barth
Superior Court of New Jersey
Appellate Division
v
Bernards Township
Docket No A-000744-18T3
Planning Board
Motion No. M-003583-18
Before Part D
Judge(s) Carmen Messano

Motion Filed 01/14/2019
Answer(s): 01/22/2019
Filed: 01/23/2019

By: Michael Barth
By: Bernards Township
Planning Board
By: Islamic Society of Basking
Ridge, Inc.

Submitted to Court: February 07, 2019
ORDER
This matter having been duly presented to this court,
it is, on this 8th day of February, 2019, hereby ordered as
follows:
Motion by Appellant
Motion Staying Briefing Schedule - DENIED
Supplemental: Appellant’s brief is due march 1, 2019. There
shall be no extensions.
For the Court: s/Carmen Messano, P.J.A.D.

A7

Filed, Clerk of the Appellate Division, November 19, 2019
Order on Motion
Michael S. Barth
Superior Court of New Jersey
v
Appellate Division
Bernards Township
Docket No A-000744-18T3
Planning Board
Motion No. M-001624-18
Before Part D
Judge(s) Carmen Messano
Hany A. Mawla
Motion Filed 10/30/2018
Answers(s): 11/13/2018
Filed: 11/09/2018

By: Michael Barth
By: Islamic Society of Basking
Ridge, Inc.
Bernards Township
Planning Board

Submitted to Court: November 19, 2QJ8
ORDER
This matter having been duly presented to this court,
it is, on this 19th day of November, 2018, hereby ordered as
follows:
Motion to Stay Orders Below - DENIED
And a Preliminary Injunction Pursuant to R. 2:18-1 DENIED
Supplemental:
For the Court: s/Carmen MAH. Alvarez, P.J.A.D.

A8

2018 WL 3637515 - NOT FOR PUBLICATION
United States District Court, D. New Jersey.
Jeffrey W. PLAZA, Plaintiff,
v.
BERNARDS TOWNSHIP PLANNING BOARD, et al„
Defendants.
Michael S. Barth, Plaintiff,
v.
Bernards Township Planning Board, et al., Defendants.
Civil Action No. 17-11466 (MAS) (LHG), Civil Action.
No.17-13154 (MAS) (LHG) - Signed 07/31/2018
Attorneys and Law Firtns: Michael S. Barth, Far Hills, NJ,
pro se.; Eric L. Harrison, Methfessel & Werbel, Esqs.,
Edison, NJ; David J. Baron, Robert Louis Toll, Hogan
Lovells US LLP, NY, NY, for Defendant. Jeffrey W. Plaza,
Levy, Ehrlich & Petriejlo, PC, Newark, NJ, for Plaintiff.
MEMORANDUM OPINION
Michael A. Shipp, United States District Judge
* 1 This matter comes before the Court on two motions in
related cases: (i) Plaintiff Jeffrey W. Plaza’s (“Plaza”)
motion to remand his case, Civ. No. 17-11466 (“Plaza
Action”) to the Superior Court of New Jersey, Law Division,
Somerset County for lack of subject matter jurisdiction (ECF
No. 10); 1 and (ii) Plaintiff Michael S. Barth’s (“Barth”)
motion to remand his case, Civ. No. 17-13154 (“Barth
Action”) to the Superior Court of New Jersey, Law Division,
Somerset County for lack of subject matter jurisdiction (1713154 ECF No. 7). In the Plaza Action, Defendants Bernards
Township Planning Board (“Planning Board”) and the
Islamic Society of Basking Ridge, Inc. (“ISBR”)
(collectively, “Defendants”) filed opposition (ECF No. 14)
and Plaza replied (ECF No. 19). In the Barth Action,
Defendants filed opposition (17-13154 ECF No. 13) and
Barth did not file a reply. The Court has carefully considered
the parties’ submissions and decides the matter without oral
argument pursuant to Local Civil Rule 78.1. For the reasons
set forth below, Plaza’s and Barth’s motions are granted.

A9

I. Background
The Plaza and Barth Actions stem from a prior federal
lawsuit in the District of New Jersey involving Defendants,
The Islamic Society of Basking Ridge, et al v. Township of
Bernards, et al., docket number 16-1369 (“Original Action”).
See generally Islamic Soc’ y of Basking Ridge v. Twp. of
Bernards, 226 F. Supp. 3d 320 (D.N.J. 2016). The ISBR
sought to construct a mosque in Bernards Township, but the
Planning Board denied its application. (Compl. 6-9, ECF
No. 1-3.) The ISBR then filed a lawsuit against the Bernards
Township Committee apd the Planning Boqrd, alleging
violations of the Religious Land Use and Institutionalized
Persons Act, the first apd Fourteenth Amendments of the
United States Constitutiop, the New Jersey Copstitution, and
New Jersey state law. (fd. f 10.)
The parties in the Original Action eventually entered into
a settlement agreement (“Settlement Agreement”). (Id. f 11.)
Further, individual committee members qf both the
Township Corppiittee and the Planning Board agreed to the
terms of the Settlement Agreepient.2 (Id.) The Settlement
Agreement, which set forth (he next steps ip the planning and
construction of (he mosque, also provided the Township and
the Planning Board with a general release of any and all
claims against them. (Id. Yf 12-14.) The general release,
however, was conditioned upon the Planning Board’s
approval of the Settlement Agreement. (Id. ^ 17.)
A. Plaza Action
*2 Plaza, proceeding pro se, filed a complaint against
Defendants in the Superior Court of New Jersey, Law
Division, Somerset County, alleging violations of the New
Jersey Municipal Land Use Law (“MLUL”), the New Jersey
Local Government Ethics Law (“LGEL”), and New Jersey
common law, as well as violations of the Planning Board’s
Rules and Regulations. (See generally Compl.) On
November 9, 2017, Defendants removed the action to this
Court citing 28 U.S.C. § 1441 as the basis for jurisdiction
(Notice of Removal 1, ECF No. 1), and then each filed

A 10

motions to dismiss pursuant to Federal Rule of Civil
Procedure 12(b)(6), claiming that Plaintiff had failed to state
a claim upon which relief could be grantee. (Planning
Board’s Mot. to Dismiss 1, ECF No. 7; ISBR’s Mot. to
Dismiss 1, ECF No. 9.)
Following Defendants’ motions, Plaza filed a motion to
remand to state court, arguing that the action involves solely
state law claims and the Court, therefore, has no subject
matter jurisdiction over the non-diverse parties. (Plaza’s Mot.
to Remand 1, ECF No. 10.) Plaintiff then moved to stay all
proceedings pending the Court’s determination on Plaza’s
motion to remand. (Plaza’s Mot. to Stay 1, ECF No. 11.) The
Court, on January 22, 2018, granted Plaintiffs motion to stay
and administratively terminated Defendants’ motions to
dismiss, pending a decision on Plaza’s motion to remand.
(Order, ECF No. 22.)
B. Barth Action
Barth, pro se plaintiff, filed a Complaint in Lieu of
Prerogative Writs against Defendants in the Superior Court
of New Jersey, Law Division, Somerset County. (See
generally Barth Compl., 17-13154 ECF No. 1-1.) Barth’s
complaint pertains to the Settlement Agreement the parties
reached in the Original Action, as well as (he steps and
procedures taken by Township and Plhttpijtg Bbafd
committee members in achieving that result. Barth alleges,
although without citing specific statutory authority, that: (1)
“the Settlement Agreement... created a conflict of interest for
some Planning Board members voting at tfie Whispering
Woods hearing”; (2) “the Flapping Board ignored ISBR’s
alleged lack of standing to file a site plan, application”; (3)
the Whispering Woods hearing rpandated by tfie Settlement
Agreement was procedurally flawed; and (4) tfie Planning
Board’s decision to approve tfip ISBR’s revised site plan was
unreasonable because ISBR’s sife plan presented a publjc
safety fiazard. (Defs.’ Barth Action Opp’n Br. 8,17-13154
ECF No. 13; see also Barth Compl-)

v.

All

Following Barth’s filing, the Planning Board removed the
action to federal court, pursuant to 28 U.S.C. § 1441 (Notice
of Removal 1, 17-13154 ECFNo. 1), and subsequently filed
a motion to dismiss pursuant to Federal Rule of Civil
Procedure 12(b)(6), claiming that Barth had failed to state a
claim upon which relief could be granted. (Planning Board’s
Mot. to Dismiss 1,17-13154 ECF No. 6.) Barth then filed a
motion to remand the case to state court, arguing that the
action involves state law claims and the Court, therefore, has
no subject matter jurisdiction over the non-diverse parties.
(Barth’s Mot. to Remand, 17-13154 ECF No. 7.) Barth then
moved to stay all proceedings pending the Court’s
determination on Barth’s motion to remand. (Barth’s Mot. to
Stay, 17-13154 ECF No. 8.) The Court, on January 22, 2018,
granted Barth’s motion to stay and administratively
terminated the Planning Board’s motion to dismiss pending a
decision on Barth’s motion to remand. (Order, 17-13154
ECF No. 12.) Following the Court’s order staying
proceedings, Plaintiff filed a motion for recusal and a motion
to strike Defendants’ jointly filed opposition as untimely.
(Barth’s Mot. for Recusal; Barth’s lyfot. to Strike, 17-13154
ECFNo. 15.)
II. Legal Standard
A. Removal
*3 "A party may remove an action fibm state court to any
federal court in which there is original jurisdiction. 28 U.S.C.
§ 1441(a). There are two types of original jurisdiction, or
subject matter jurisdiction. The first, federal question
jurisdiction, exists when a civil action arises “under the
Constitution, laws, or treaties of the United States.” 28
U.S.C. § 1331. jlie second, diversity jurisdiction, is
established when the amount in controversy exceeds $75,000
and the parties arc of completely diverse citizenship. 28
U.S.C. § 1332, Parties removing an action to federal court,
therefore* are tasked with-establishing that “[fjederal subject
matter jurisdiction exists and that removal is proper.”
Gateway 2000 v. Cyrix Corp., 942 P. Supp. 985, 989 (D.N.J.

A 12

1996); Dukes v. U.S. Healthcare, 57 F.3d 350, 359 (3d Cir.
1995); Abels v. State Farm Fire & Cas. Co., 770 F.2d 26,
29(3d Cir 1985).
At all stages of a litigation, the removing party bears the
burden of demonstrating that the federal court has subject
matter jurisdiction over the action. See Frederico v. Home
Depot, 507 F.3d 188, 193 (3d Cir. 2007); Samuel-Bassett v.
Kia Motors Am., Inc., 357 F.3d 392, 396 (3d Cir. 2004).
Accordingly, when presented with an argument for remand,
“the burden of establishing removal jurisdiction rests with
the defendant.” Dukes, 57 F.3d at 359. Removal statutes are
strictly construed-when doubt exists as to the propriety of
removal; remand is favored. Carlyle Inv. Mgmt. LLC v.
Moonmouth Co. SA, 779 F.3d 214, 218 (3d Cir. 2015)
(citing Abels v. State Farm Fire & Cas. Co., 770 F.2d 26, 29
(3d Cir. 1985)).
B. Federal Question Jurisdiction
In these cases, because there are no allegations that the
parties are diverse, removal is permissible only if federal
question jurisdiction exists pursuant to 28 U.S.C. § 1331.
“The presence or absence of federal-question jurisdiction is
governed by the ‘well-pleaded complaint rule,’ which
provides that federal jurisdiction exists only when a federal
question is presented on the face of the plaintiffs properly
pleaded complaint.” Caterpillar, Inc. v. Williams, 482 U.S.
386, 392 (1987). “[T]he plaintiff [is] the master of the claim;
he or she may avoid federal jurisdiction by exclusive reliance
on state law.” Kline v. Sec. Guards, Inc., 386 F-3d 246, 252
(3d Cir. 2004) (quoting Caterpillar, 482 U.S. at 392). A
defense to a plaintiffs state law action, therefore, “ordinarily
does not appear on the face of the well-pleaded complaint,
and ... usually is insufficient to warrant removal to federal
court. Dukes, 57 F.3d at 353; Beneficial NatT Bank v.
Anderson, 539 U.S. 1, 6 (2003) (“As a general rule, absent
diversity jurisdiction, a case will not be removable if the
complaint (joes npt affirmatively allege a federal claim.”),

in. Disenssjpn

A 13

A. Parties’ Positions
i. Plaza Action
Plaza alleges that, because a condition of the ISBR’s
general release was the approval of the Settlement
Agreement, the individual P|anning Board and Township
committee members who agreed to the terms of the
Settlement Agreement had a conflict of interest and should
not have been permitted to enter into the Settlement
Agreement. (Plaza’s Moving Br., 2, ECF No. 10-1.)
According to Plaza, “[b]y making the individual benefit of
the [general release] contingent on the approval of [ISBR’s
renewed mosque application], the [Settlement Agreement]
gave each such Board member an improper and unlawful
reason to approve the Revised Application, namely to obtain
a release of all personal claims that ISBR ... may have had
against them.” (Id) This conflict, according to Plaza, was in
violation of the MLUL, LGEL, and New Jersey common
law. (Id. at 3.) “For that reason, the actions taken by the
[Conflicted Board [M]embers in approving the [Settlement
Agreement] constituted an abuse of New Jersey municipal
land use powers bestowed upon them and are a legal nullity.”
(Id.)
*4 Plaza contends that, although Defendants allege this
caste involves the perforinance of a fedeially-rhanddted ■
settlement agreement, federal question jurisdiction has not
been established. (Id. at 10.) According to Plaza, the action
only involves issues of state law, and “the potential effects on
the [Settlement Agreement] of a federal lawsuit simply djd
not present a federal question.” (Id. at 13.) Moreover, Plaza
states that “Defendants do pot cite a single authority for the
proposition that* whether expressly or implicitly contained in
an order or settlement agreement incorporated therein, that a
federal district court has the authority to assert ancillary
jurisdiction over the subsequent state law claims of third
patties wj}0 djd not participate in pither the qnderlyiing
litigation of resulting settlement agreement.” (Plaza’s Reply
Br. 2, ECF No. 19.)

A 14

Defendants, on the other hand, contend that the Court’s
order, which retained jurisdiction over all matters relating to
the-Settlement Agreement, created ancillary jurisdiction pver
Plaza’s claims and, therefore, the Cpurt has subject matter
jurisdiction over the present action. (Defs.’ Plaza Action
Opp’n Br. 6, ECF No. 14.) Defendants cite to provisions of
the Settlement Agreement that they assert vest this Court
with jurisdiction. (Id. at 3-4) Further, Defendants claim that
the Court had subject-matter jurisdiction over the Original
Action and, because the Settlement Agreement was a federal
court order in the Original Action, the “state law claims
[Plaza] has raised constitute a direct attack on the federal
court Order, thereby providing this Court with ancillary
jurisdiction.” (Id. at 7.)
ii. Barth Action
Barth contends that, because the complaint only alleges
state law claims, there is no basis for the Court to exercise
federal question jurisdiction over the non-diverse parties.
(Barth’s Mot. to Remand 3,17-13154 ECF No. 7.) The only
authority Barth cites is Smith v. Township of Bernards, a
case previously before this Cpurt that also dealt with state
law claims involving the Settlement Agreement. See
generally Smith v. Twp. of Bernards, No. 17-4551, 2017 WL
5892202 (D.N.J. Nov. 29,2017). Barth argues that, like the
pldihtiff in the Smith action, whose motion to remarid was
granted for lack of subject matter jurisdiction, the current
action lacks a federal question and should, therefore, be
remanded to state court, (garth’s Mot. to Remand 3.)
Defendants raise similar arguments in opposition as they
raised in the Plaza Action, contending that the Court’s order,
which retained jurisdiction over all plotters relating to the
Settlement Agreement, created ancillary jurisdiction over
Barth’s claims and, therefore, establishes the Court as a
suitable forum for (he present action- (Defs.’ Barth Action
Qpp’n Br. 7-.) Further, Defendants claim that the Court had
subject-matter jurisdiction over the Original Action and,
because the Settlement Agreement was a federal court order

A 15

stemming from the Original Action, Barth’s state law claims
attach both the federal court order and the Planning Board’s
approval and prqvide the Court with ancillary jurisdiction.
(Id. at 9, 13-14)
B. Analysis
'
i. Federal Question Jurisdiction: Well-Pleaded Complaint
Rule
Plaza’s allegations are based on violations of the MLUL,
LGEL, and New Jersey common law, which are all state law
claims. (Compl. 27-43.) Defendants’ justification for
removal is based upon the Settlement Agreement, which was
incorporated into a federal order of this Court. (Defs.’ Plaza
Opp’n Br. 6-7.) By challepging the validity of the Settlement
Agreement and the procedure used to obtain it, Defendants
argue that Plaza’s Complaint raises a federal question and is,
therefore, subject to the Court’s jurisdiction. (Id.) Similarly,
Barth’s allegations are based on several inappropriate actions
and conflicts of Defendants, none of which fall under federal
law. (See generally Barth Compl.) Defendants’ justification
for removal is based upon (he Settlement Agreement, which
wqs entered as a federal order from this Court. (Defs.’ Barth
Opp’n Br. 8-9.) By challenging the validity of the Settlement
Agreement and the procedure used to obtain it, Defendants
argue that Barth’s Complaint raises a federal question and is,
tftettfbre, subject tfi the PdUrt’s jurisdictjori. (fih)
defendants, however, have citecj no case that stands for the
proposition that the Settlement Agreement falls under the
class of laws that establishes federal question jurisdiction
under § 1331 or Article III.3
ii. Substantial Federal Question
*5 “[Ejven if the cause of action is based on state jaw,
there is a ‘special and small category of cases in which
[federal question] jurisdiction still lies.’ ” Goldman v.
Citigroup Glob. Mkts., Inc:, $|34 F.3d 242, 249 (2016)
(quoting Gunn v: Minton, 568 U.S. 251, 258 (2013) ). In that
small category, federal jurisdiction applies to state law claims
if a federal issue is: “(1) necessarily raised, (2) actually

Al§

disputed, (3) substantial, and (4) capable of resolution in
federal court without disrupting the federal-state balance
ap•proved by Congress.” Gpnn, 568 U.S. at 25fg When all
four of these elements are met, subject matter jurisdiction is
proper over a state law claim. Id.
To establish federal question jurisdiction based on a
substantial federal issue, “an element of the [plaintiffs] state
law claim [must] require[ ] construction of federal law.”
MHA LLC v. Healthfirst, Inc., 629 F. App’x 409, 412-13 (3d
Cir. 2015); Grable & Sons Metal Prods, v. Darue Eng’g &
Mfg., 545 U.S. 308, 314-15 (2005) (fincfing federal
jurisdiction because plaintiffs state law claim was premised
“on a failure by the IRS to give [plaintiff] adequate notice, as
defined by federal law”) (emphasis added); Smith v. Kansas
City Title & Trust Co., 255 U.S. 180,201-02 (1921) (holding
that federal jurisdiction was proper because the state law
claim, which prohibited investment in illegal securities,
depended upon “the constitutional validity of an act of
Congress which is directly drawn iqto question”); but see
MHA, 629 F. App’x at 413 (removing party “failed to
establish that it is necessary to construe, federal law to
determine whether [plaintiff] can establish the elements of its
[state law claims]”) (eipphasjs added); IVfaniiing v. Merrill

88

without reference to federal law and, therefore, were not
subject to federal jurisdiction) (emphasis added); Old Bridge
Twp. Raceway Park, Inc. v. Twp. of Old Bridge Zoning Bd.
of Adjustment, No. 13-05219, 2013 WL 5793452, at *2 (Oct.
28, 2013) (stating that even though a related case was in front
of the court and “op an intuitive level” it would seem to make
sense to have both cases proceed there, the court lacked
subject matter jurisdiction over a case involving a state law
z°0ing disputp); New Jersey v. Cjfy ofWjlcfwqqd, 22 f.
Supp. 2d 395, 403-04 (D.N J. 1998) (holding that while
plaintiffs complaint references federal law, the central issue

A 17

“turns on the application and interpretation of purely state
laws”) (emphasis added).
Plaza’s ajid Barth’? complaints raise violations pf
Jersey law, while referencing the Court’s Order incorporating
the Settlement Agreement. (See generally Plaza Compl.;
Barth Compl.) Defendants have not demonstrated, however,
that reference to an order-which is not a federal law-is
sufficient to establish subject matter jurisdiction based on a
substantial federal issue. Further, Defendants have not
demonstrated that Plaza’s and Barth’s complaints meet the
standards set forth in both Grable and Smith and have not
earned their burden of demonstrating that the Complaints
raise a substantial federal issue.
iii. Ancillary Jurisdiction
Ancillary jurisdiction gives courts authority to hear
matters that lack an independent basis for subject matter
jurisdiction but are “incidental to other matters properly
before them.” Kokkonen v. Guardian Life Ins. Co. of Am.,
511 U.S. 375, 378 (1994); Bryan v. Brie Cty. Office of
Children & Youth, 752 F.3d 316, 321 (3d Cir. 2014). Courts
generally exercise ancillary jurisdiction over a claim to: “(1)
permit disposition by a single court of claims that are, in
varying respects and degrees, factually interdependent; and
(2) to enable a court to function successfully, that is, to
manage its proceedings, vindicate its authority, and
effectuate its decrees.*’ Kokkonen, 511 tl.S. at 379-80.
*6 Claims involving settlement agreements properly
incorporated into a federal court order may be subject to
ancillary jurisdiction. Kokkonen, 511 U.S. at 381. In
Kokkonen, the Supreme Court reversed the Ninth Circuit’s
affirmation of a Finding of subject matter jurisdiction in an
action stemming from a settlement agreement- Id. at 382. The
district court in the original action did not retain its
jurisdiction over future claims regarding tfie settlement and,
therefore, no subject matter jurisdiction existed. Id. at 381.
The Supreme Court noted:

A 1&

' i ;;

The situation would be quite different if the parties’
obligation to comply with the terms of the settlement
agreement had been made part of the order of dismissal —
cither by separate provision (such as a provision ‘retaining
jurisdiction’ over the settlement agreement) or by
incorporating the terms of the settlement agreement in the
order. In that event, a breach of the agreement would be a
violation of the order, and ancillary jurisdiction to enforce the
agreement would therefore exist. Id.
Nevertheless, “a ‘court must have jurisdiction over a case
or controversy before it may assert jurisdiction over ancillary
claims[;]’ [ajncillary jurisdiction alone cannot provide the
original jurisdiction that [a party] must show in order to
qualify for removal under § 1441.” Syngenta Crop Prot., Inc.
v. Benson, 537 U.S. 28, 34 (2002) (quoting Peacock v.
Thomas, 516 U.S. 349, 355 (1996) ). In other words, there
must be an anchor claim present in the lawsuit establishing
subject matter jurisdiction before a court may allow ancillary
claims. See id.; Kokkonen, 511 U.S. at 381; Old Bridge,
2013 WL 5793452, at *2 (granting plaintiffs motion to
remand, the court held that “| ancillary] jurisdiction cannot
serve as a basis for bootstrapping [pjlaintiff s action to the
previous [federal] action between [defendant] and

(iifainiifri”).

:; , ! '

.

Unlike the parties in Kokkonen, this Court retained
jurisdiction over claims arising under the Settlement
Agreement. (Exhibit B, ECF No. 1-2.) Plaza and Barth,
however: (i) are not parties to the Settlement Agreement; (ii)
brought separate cases challenging (he actions of the
Planning Board and ISBR and not, for example, a motion tp
enforce or a challenge to the Settlement Agreement in the
Original Action; (iii) Plaza’s and Barth’s claims reference the
Settlement Agreement, but only allege violations of state
law; and (iv). importantly, the matters were .filed, in state court
and then removed to this Court. Accordingly, Defendants
have not carried their burden to show that the Court has
subject matter jurisdiction.

A 19

Moreover, paragraph 10-one of the provisions of the
Settlement Agreement that Defendants assert vest the Court
with jurisdiction over this case-does use broad language;
For the avoidance of doubt, the Court’s retention of
jurisdiction over this matter encompasses all matters relating
to the Whispering Woods hearing referenced in Paragraph 3,
any approvals referenced in Paragraph 5, any legal appeals or
challenges referenced in Paragraphs 5 or 9, or any other
matters relating to the approval, construction or operation of
ISBR’s proposed mosque on the Property.
(Settlement Agreement 10, ECF No. 10-2.) The
language speaks in terms of retention of jurisdiction over
“this matter”, which, as written, includes “any Complaint in
Lieu of Prerogative Writ or other Complaint or pleadings
filed ip any Division or Venue of the Superior Court of New
Jersey[, which] shall be promptly removed to the United
States District Court for the District of New Jersey and
marked as a related matter to this Action.” (Id.) The
provision further states, however, that “[a] 11 Parties consent
to such removal and all further proceedings on any such
pleadings shall be in this Court before Judge Shipp (or the
District Judge then assigned to this Action).” (Id. (emphasis
added).) Thus, paragraph 10 speaks in terms of the consent of
the parties to tlje Settlemetit A.grfeem^htijself;; however, /' | ,
neither Plaza nor Barth is a party to the Settlement
Agreement. Defendants have not carried their burden to
demonstrate that this language that purportedly vests the
Court with ancillary jurisdiction is a permissible basis for
removal.
*7 Further, in Smith v. Township of Bernards, this Court
ruled that the Court did not have ancillary jurisdiction over
state law claims challenging the Settlement Agreement
brought by third parties. 2017 WL 5892202, at *3-4. In
Smith, defendants, which included the Planning Board,
removed an action alleging a violation of the Open Public
Meetings Act (“OPMA”), a New Jersey state law, to federal
court. Id. at * 1. Similar to the present action, this violation

A 20

stemmed from the Settlement Agreement. Id. Plaintiff in
Smith contended that defendants failed to provide proper
notice pf the tweeting in which cprt^ip Pities jn the ptjgih^l
Action entered into the Settlement Agreeirient, which
'
constituted a violation of the OPMA. Id. Defendants argued
that this Court’s retention of jurisdiction over the Settlement
Agreement created ancillary jurisdiction over the OPMA
claim. Id. at *3. This Court, however, granted plaintiffs
motion to remand, stating that “[ajncillary jurisdiction,
however, is not available here because ‘ [i]n a subsequent
lawsuit involving claims with no independent basis for
jurisdiction, a federal courj lacks the thresholcl jurisdictional
power that exists when ancillary claims are asserted in the
same proceeding as the claims conferring jurisdiction.’ ” Id.
(quoting Peacock, 516 U.S. at 355).
IV. Conclusion
Accordingly, for the reasons set forth above, Barth’s
Motion for Recusal and Motion to Strike are denied, Plaza’s
and Barth’s Motions to Remand are granted. An order
consistent with this Memorandum Opinion shall be entered.
Footnotes
1 All citations are tp tpe Plaza Action dpcket unless
otherwise indicated. . : : •
.
■, 1 Metnbefs of the Bernards Township Committee who
agreed to the terms of the Settlement Agreement were John
Carpenter, John Ma|ay, Thomas Russo, Carolyn Gaziano,
and Carol Bianchi (Compl. f 11), while the members of the
Planning Board were James Baldassare, JCathleen Piedici,
Barbara Kleinert, and Scott Ross. (Id.). Of these members,
Gaziano, Piedici, Balcjassare, and Ross (“Conflicted Board
Members”) are parties to the Settlement Agreement and,
therefore, beneficiaries of the general release. (Id. * 20.) The
C°Vt notes th^t tpihfprtght^ Aeji0p,|jaza was namc(|asa
defendant in his official capacity but was not a party to the
Settlement Agreement.

A 21

3 Complete preemption may be a basis for removal in
certain limited circumstances. The Supreme Court has
recognized complete preemption in three situations: § 301 of
the Tabor Management Relations Act; § 502(a) of the
Employee Retirement Income Security Act; and §§ 85 and 86
of the National Bank Act. Defendants do not address in their
briefs the topic of complete preemption-which, inapy event,
is irrelevant-and, therefore, fail to demonstrate that the
doctrine applies to the removed action.

A 22

SUPREME COURT OF NEW JERSEY
No. 083394
Michael S. Barth
Plaintiff-Appellant,
v.
Bernards Township
Planning Board and
Islamic Society of
Basking Ridge, Inc.
Defendants-Respondents.

Petition for Certification
To the Supreme Court of NJ
Appellate Division
Docket No. A-00744-18T3
SAT Below:
ffon. Carmen A. Alvarez
Hpn. Hany A. Mawla
Hoii. Carmen Messano

REVISED PETITION FOR CERTIFICATION
AND APPENDIX
Michael S. Barth, Plaiptiff-Appellant
P.O.Box832 : ; '
1
Far Hills, New Jersey 07931
(917)628-6145
September 26, 2019
RECE1VKD SEP 27 2019
supreme COURT OF new jersey

A 23

TABLE OF CONTENTS
l
Table of Contents..................................
u
Table of Authorities................................
Short Statement of Matter Jnvolyed
1
6
Questions Presented........ '..../...........
7
Errors Complained Of............................
20
Reasons Certification Should be Granted
Comments with Respect to Appellate Division Opinion . . 20
20
Conclusion......................................................
20
Certification Pursuant to 4. 2:12-7 (a)............
Table of Content to Appendix
Apal
Amended Notice of Petition for Certification ..
Apa2
Appellate Division Order issued July 31, 2019
Apa3
Appellate Division Order issued June 12, 2019
Apa4
Appellate Division Order issued June 12, 2019
New Jersey Supreme Court Order issued May 24, 2019 Apa5
Appellate Division Order issued February 8, 2019 .... Apa6
Appellate Division Order issued November }9, 2018.. Apa7
TABLE OF ATFfORI'J'IES
CONSTITUTIONAL AUTHORITIES
8
United States Constitution Foxxrteen Amendment........
8
New Jersey Constitution Articles 1 • • • -........................
Case Law Authorities
Cherokee LCP Land, LLC., V. City of Linden Planping
7, i8
lioafd, 234 NJ. 403 (20i 8)
' "
Dunbar Homes, Inc. v. Zoning Board of Adjustment of
Township of Franklin, 233 NJ. 246 (2018)................. 7,16
9
Ghandi v. Caspedez, 39Q N.J. 193 (NJAD 2007).........
In Re Accutane Litigation, 234 N.J. 340 (2018)........... 7,17
Montclair St. Univ. v. Cty of Passaic, 234 N.J. 434 (2018) 14
Palisadium MGT Corp. v. Borough of Cliffside Park,
456 N.J. Super. 293 (N.J.A.D. 2018).......... :.................. 17
&8P.W v. City of Gar|ie|d ^pningI3pard of Adjustment,
4, 6, 12-15
237 N.J. 333 (2019)........................................
9
U.S. v. Decker, 957 F.2d 773, 777 (CA8 1992)
Wawa Inc. v. Tw. of Westhampton, 182 N.J. 626 (2003). . 8

A 24

Whispering Woods at Bapim Hollow, Inc. v. Middletown Tp.
Planning Hoard 223 NJ. Super. 1 (NJAD 1987) cert denied
110N.J. 175 (1988)...,................... ........................14
Statutes
MLUL, Municipal hand Use Legislation
N.J.S.A. 40:55-d-40.4 et seq. ...............
17
ARTICLES
Bernards Township Official urged tp yes vote on Mosque,
then voted no, Bemardsville News, October 19, 2017 j.. t 12

A 25

SHORT STATEMENT OF MAT TER INVOLVED (FN1)
FNl: All references are basically verbatim from Appellant’s
Brief and Appendix submitted to the Appellate Division.
This matter mainly involves the application of recent
Supreme Court cases to what originated as an Islamic Society
of Basking Ridge (ISBR) filing of a false and misleading
sham land use application with the Bernards Township
Planning Board (“Board”) to construct a community center at
124 Church Street Bernards Township, where ISBR admitted
its property was unsuited for the proposed land use, it lacked
a legally cognizable interest in a sewer easement that was a
fundamental requirement of the application (Board counsel
erroneously advised that the “MLUL” did not allow it to
undue a completepess review of even a fraudulent
application), were ISBR consented to the public participation
in board hearings and to object and cross exam its witnesses
(knowing for example that this party a tax paying resident
lived within one mile of the location and a member of a
volunteer organization within 200 feet of the proposed
development), where ISBR admitted tier plans would have a
negative impact on the local community as even ISBR’s
traffic expert testified against ISBR of insufficient parking
and traffic problems and another ISBR witness testified

membets always late would rdee to meetings at the Site; frut
where the Board admitted it failed to (and claimed it could
not) consider traffic on the road in front of the site and
impact on internal circulation of the proposed development).
I lowever, the Board initially denied the application finding i(
would create public health and safety problems, ISBR*s
witness testimony unqualified, unreliable (and previous
witness coaching).
: |
'
This matter involves the application of case law to
conflicted board members voting at a so called “whispering
woods hearing” to approve ISBR’s previously denied public
health and safety hazarded land use application, when even
ISBR counsel cautioned the Board and asked to enter into the
record plaintiff’s letter objecting to the availability of the

A 26

plans in sufficient time before the meeting and potential
conflicts of interest of Board members (Board counsel would
not allow plaintiff to respond, but plaintiff later objected to
the change in the rules for the hearing.) Conflicts of interest
of Board members were also raised by Mr. Jeffrey Plaza, the
former Board Chairman over the application who resigned
over the conflict of interests present, and Mr. Robert Orr,
former member of the Board that reviewed the ISBR
application. Later in the meeting a voting board member
asked for advice if members had a conflict of interest in
voting that evening, but instead of adjourning for a local
board review, Board counsel indicated the conflict of interest
would have to be resolved by a New Jersey Superior Court.
The conflicted Planning Board approved the same
application it denied, with reference to the same existing
unresolved public health and safety hazards as Board
Planners stated the plans conformed to a settlement, not the
“MLUL”.
Matters before the Appellate Division involved
plaintiffs complaint to reverse the Board approval, and Mr.
Plaza similar complaint. The removal of both complaints
were subsequently remanded. At a consolidated case
Management Conference Mr. Plaza agreed to provide
transcripts of the board proceedings. Mr. Plaza described a
quid-pro-quo arrangement that created a conflict of interest
of board members and that one board member responded to
the presentation of a conflict of interest but was not provided
with any advice before a vote was taken. During that same
hearing, John Belardo, Esq., who was not counsel of record,
testified on the matter how building plans were proceeding,
where Judge Miller advised ISBR proceeds at its own risk.
Plaza subsequently withdrew his complaint on the basis he
would have to testify against his former colleagues.
“ACMS” indicated there would be no oral arguments
on the various motion made before Judge Miller. About 455
pm the evening before, Judge Miller’s clerk left this party a
message of oral arguments the next morning. Judge Miller

A 27

indicated at oral arguments he would issue his decision later
that day. Based on the memorandum attached to his orders,
Judge Miller did not read his opinions. The Superior court
sent no copies of the Orders to this self-represented party.
Over time it appeared Judge Miller attempted to make
changes to the Orders he didn’t read before he signed, the
most recent Order being completely illegible based on an
ACMS download. To my knowledge, the Court made no
effort to send those unnoticed changes to plaintiff.
Plaintiff appealed 1. October 12, 2018 Order granting
ISBR Motion to dismiss Complaint for Failure to State
Claim. 2. October 12, 2018 Order denying Order to Show
Cause. 3. October 12, 2018 Order granting Bernards Motion
dismiss Complaint for failure to State Claim. 4. October 15,
2018 Amended Order granting Bernards Motion to dismiss
Complaint for failure to State Claim. 5. October 15, 2018
Amended Order denying Order to Sow Cause, and 6. October
24, 2018 Amended Order granting Bernards Motion to
Dismiss Complaint for failure to State Claim. It is not clear
which of any of these were issued with-or-without prejudice,
or if still in draft form. (fn2)
Fn2: Judge Miller issued an Order denying Plaintiffs
motion for Summary Judgement and Discovery, but remotely
addressed those in the statement of reasons he did not read.
On November 19, 2018 the appellate division denied
appellant’s motion to stay the orders below and a preliminary
injunction pursuant. (Apa7.) On February 22, 2019, plaintiff
filed a motion of Interlocutory Appeal with the New Jersey
Supreme Court to stay the Appellate /division briefing
schedule pending a Supreme Court decision in Piscitelli v.
City of Garfield Zoning Board of Adjustment. On May 20,
2019, defendants filed a “motion” with the Appellate
Division to dismiss plaintiffs appeal for lack of prosecution.
On May 24, 2019 the New Jersey Supreme Court denied
plaintiffs motion to stay the Appellate Division briefing
schedule as moot. (Apa5.) On June 3, 2019 plaintiff filed a
motion for reconsideration and to file as within time a motion

A 28

for reconsideration. On June 5, 2019 defendants field a
SECOND motion to dismiss plaintiff’s appeal without
prejudice. On June 7, 2019 defendants filed opposition to
plaintiffs June 3, 2019 motion providing a response that was
plain legal error. On June 12, 2019 the Appellate Division
granted respondent’s May 20 Motion to dismiss Appeal for
Failure to Prosecute. (Apa3.) On June 12, the Appellate
Division denied plaintiff’s motion for reconsideration and to
file as within time a motion for reconsideration. (Apa3.) On
June 12, the Appellate Division denied plaintiff’s motion for
reconsideration and to file as within time a motion for
reconsideration. (Apa3.) On June 18, 2019 Plaintiff pointed
out the plain legal error that the Appellate Division relined on
Defendant misrepresentation of June 7, 2018, that was the
defendants’ basis for the Appellate Division Order on June
12, 2019. On June 18m, 2019, the /appellate Division
directed plaintiff to file a formal motion. On July 31,2019
Appellate Division without comment denied plaintiffs
Motion to : file pleadings of July 2, 2019 as within time,
extend Time to File Pleadings of July 2, 2019,
reconsideration of the appellate division June 12,2019
Orders, file June 17, 2019 pleadings as within time, extend
the time to file the June 2, 2019, file the June 3, 2019 Brief
and Appendix, Reinstate Appeal (Apa2.)
QUESTIONS PRESENTED
1. Did the ACMS “go fish” service of process violate
federal and New Jersey constitutional protections?
2. Is “5 minute” notice of oral arguments adequate when
parties were previously notified there would be no oral
arguments?
3. Is a trial court Judge that signs an Order and not read is
own supporting opinion prima facie evidence of judge
bias, and null and voids the judge’s Order?
4. Did the Appellate Division abuse its discretion to
facilitate Defendants’ Motion to Dismiss?
5. When the Appellate Division dismissal of plaintiffs
appeal was based on plain legal error, and the Division

A 29

refused to provide a reason for dismissing plaintiffs
appeal, is the Division’s refusal to reinstate the appeal an
unlawful abuse of discretion under other New Jersey case
law?
6. Under Piscitelli v. City of Garfield Zoning Board of
Adjustment. 237 NJ. 333 (2019), is the conflicted
planning board decision below null and void or warrants
additional discovery?
7. Is the Order Granting ISBR Motion to Dismiss for
Failure to State a Claim defective?
8. Under Montclair State University v. County of Passaic.
234 N.J. 434 (2018), a local municipal planning board
must consider the traffic safety impact of a land use
application on an adjoining road, even if that roadway is
a “county road”, and if not, the MLUL is
unconstitutional?
9. Under Piscitelli. Dunbar and In Re Accutane, the current
interpretation Whispering Woods at Bamm Hollow. Inc.
v. Middletown Tp. Planning Board. 223 N.J. Super. 1,
(NJAD 1987) cert denied 110 N.J. 175 (1988) needs to
be revisited by the New Jersey Supreme Court because it
is being unconstitutionally applied, and alternatively, the
NJ MLUL is unconstitutional if a “Whispering Woods”
hearing can circumvent the principles in the statute?
10. Under Dunbar Homes. Inc, v. Zoning Board of
Adjustment of Township of Franklin. 233 N.J. 5456
(2018), is a planning board approval of a sham land use
application null and void and if not, is the NJ MLUL
unconstitutional?
11. Under In Re Accutane Litigation. 234 N.J. 340 (2018), is
a planning board approval of a land use application that
was based on incompetent testimony, null and void, and
if not, is the MLUL unconstitutional?
12. Under Cherokee LCP Land. LLC v. City of Linden
Planning Board. 234 N.J. 403 (2018), is a township
resident similarly situated to plaintiff have standing in the
instant matter?

A 30

ERRORS COMPLAINED OF
1. The ACMS “go fish” service of process violates federal
and New Jersey constitutional protections?
It is not clear whether this is an issue of first impression
as the ACMS on-line access process appears recently rolled
out to self-represented parties, and perhaps until this time the
Trial Court had at least some form of courtesy to ensure all
parties received the court’s order that are subject to appeal in
a timely fashion. Other than the Trial court stating on oral
arguments that the Court would render decisions that
afternoon, to my knowledge, a self-represented does not (or
did not have at that time) have electronic delivery of Orders
uploaded into eCourts. The system itself seems to indicate
ope needs a valid “Bar ID” to view the submitted documents.
As the Court can take judicial notice of three orders uploaded
ajter the day of oral arguments, copy of Orders only deemed
served by the uploading of an Order on eCourts is NOT
adequate notice, and are basic procedural violations of the
United States Constitution, and New Jersey Constitution
Article 1. Accordingly, the ACMS “go fish service” of
process violates federal and New Jersey constitutional
protections.
2. Is “5 minute” notice of oral arguments adequate when
parties were previously notified there would be no oral
arguments?
As ACMS shows, the trial court repeatedly listed that no
oral arguments would be permitted for the various orders
before the court on October 12, 2018. Since there are
ramifications for not being present at oral arguments, the
court leaving a voice mail message five minutes before the
court closes for the evening that oral arguments are required
first thing the following am is a clear abuse of discretion, and
the New Jersey Court Rules should be so modified. If not, the
trail court notification procedure is clearly a violation of the
U.S. Constitution Fourteenth Amendment, and N.J.
Constitution Article 1.

A 31

3. Is a trial court Judge that signs an Order and not read is
own supporting opinion prima facie evidence ofjudge
fias, and null and voids the judge’s Order?
The Court may recall during oral arguments in Wawa Inc,
v. Tw. of Westhampton. 182 NJ. 626 (2005), the Court
asked an advocate if he thought the “judge read is opinion
before he signed it.” Although the subject did not appear
further explored in Wawa, the general basis for the question
is that a judge who signs an order but does not read the
supporting material shows an inappropriate bias on the
Judge’s part. See e.g., U.S. v Decker, S?57 F.2d 773, 777
(CA8 1992). Judge Miller clearjy did not read attached
statement of reasons before he signed is orders. Accordingly,
Judge Millers Orders that he signed when he did not read his
qwp supporting opinion is prima face evidence of judge bias,
and null and vojds the jijcjge’s Order.
4. pid the Appellate Division abuse its discretion to
facilitate Defendants’ Motion to Dismiss?
In the Court’s June 12, 2018, the Appellate Division
noted that defendants filed a motion on May 20, 2019 to
dismiss plaintiff’s appeal for failure to prosecute. However,
the record appears clear that defendants did not file a motion
on May 20, but filed on or about June 5, when they sent in a
Motion without any supporting documentation. There is no
basis in fact, law, or rule, to all the Appellate Divisions to
abuse its discretion by permitting defendants motion.
Accordingly, the appellate division inappropriately dismissed
plaintiff’s appeal.
5. When the Appellate Division dismissal of plaintiff s
appeal was based on plain legal error, and the Division
refused to provide a reason for dismissing plaintiffs
appeal, is the Division’s refusal to reinstate the appeal an
unlawful abuse of discretion under other New Jersey case
law?
Gandi v. Cespedes, 390 N.J. 193 (NJAD 2007) held the
right to reinstate appeals are ordinarily routine and freely
granted when a plaintiff cures the problem that led to the

'■>r

A 32

dismissal, and that such motions to restore should be viewed
with great liberality. R l:13-7(a). In other cases, the Court
has held it is impermissible to dismiss and appeal and deny a
motion to reinstate an appeal without the court providing any
basis. As the Court is aware, on February 22, 2019, plaintiff
filed a motion for interlocutory appeal to the Supreme Court
to stay the briefing schedule pending a decision in Piscitelli,
apd before the Supreme Court decided that motion, on Mpy
20, 2019, defendants filed a DEFECTIVE motion to dismiss
plaintiffs appeal for lack of prosecution (defendants sent in
the actual form of notice on June 5, not May 20) but before
defendants filed its June 5, motion, plaintiff on June 3 had
already a motion to submit pleadings in the matter. Plaintiffs
June 3 motion was basically within a few days of the
Supreme Court decision on the May 24, 2019 interlocutory
appeal. In addition, the Appellate Divisions abused its
discretion when it relied on the plain legal error in
defendants” pleadings. More specifically, defendants cited
the incorrect rule, and the May 1, 2013 letter of the Clerk of
the Appellate Division that in effect showed plaintiff filed the
correction motions. Accordingly, the Appellate Division
dismissal of plaintiffs appeal was clearly an abuse of
discretion.
6. Under Piscitelli v. City of Garfield Zoning Board of
Adjustment. 237 N.J. 333 (2019), is the conflicted
planning board decision below null and void or warrants
additional discovery?
Piscitelli was recently decided by the Supreme Court and
identified the principles for reviewing conflict of interest by
Municipal Boards. Perhaps the categories from Piscitelli
include: standard of review of the courts below, laws and
standards, implications, fact sensitive nature of conflict of
interest, and if the trial court fails, to allow for discovery.
The general implications are a planning board decision is
null and void based on a conflicted vote. The laws and
standards are similar to what plaintiff raised in the complaint
in the first count, the Local Government Ethics Law,

A 33

N.J.S.A. 40A:9-22.2, the Municipal Land Use Law (MLUL),
N.J.S.A. 40:55D-69, and the common law. As noted in
Piscitelli. no deference is givep to the courts below. In
Piscitelli, the Cpurt also expanded the raqge of copflicts to
ensure board members are free of conflicting interests that
ftave the capacityto compromise their judgments.
Here the facts are more troubling pup most other conflict
pf interest cases. An initial matter, ISBR counsel asked that
the Board enter into the record, plaintiff’s letter expressing
concern about conflict of interest of Board Members.
(Transcripts August 8, 2017, Page 38-39.) Mr- Plaza himself
made a presentation that evening why certain
Board
pembers should disqualify themselves. Id. 65-69. A former
member also addressed the Board about potential conflicts.
Ip 70-74. As Mr. Plaza noted in the Cqse fyjpiqgemeqt
(Conference, a board member asked for advice pn conflict of
pterest, whereupon Board Counsel stated he cpuld not give
advice but that pe matter needed to be resolved by a
Superior Court. |d. 95-96. A major risk on the quid pro quo
was if the settlement was nof approved, the individual emails
of the Board members could be discoverable, because of pe
use of the|r individual emails for government use. As to
discovery, defendants’ main contention was pat such
discovery was protected by the attorney client privilege.
However, it clear that town counsel does not control the
privilege, rather the individual, and as the record reflects,
some former members were willing to discuss the pressures
they received in being forced to sign off on the settlement,
and why they resigned instead of having to approve a land
use application that was admittedly a public health and safety
hazard. See e.g., Bernards Township Official urged yes vote
on Mosque, then voted no. ” Bemardsville News, October 19,
2017. (Mayor acknowledged he called other members to
influence their vote, a discussion that waives and is not
protected by the attorney client privilege, and is subject to
discovery.)

A 34

A worsening difference between this case and piscitelli is
in Piscitelli. the parties recognized the need for an “opinion”
before a conflicted vote is case, where here unconstitutional
defective Whispering Woods principles worsened the conflict
of interest. Accordingly, under Piscitelli. the trial court erred
in not finding a conflict of interest and alternatively erred in
not allowing the cfiscovery.
7. Is the Order Granting ISBR Motion to Dismiss for
Failure to State 4 Clajm defective?
It appears there is only one Order entered in connection
with ISBR Motion to Dismiss for Failure to state a claim.
The Court basis was irrationally flawed. The Court seems to
indicate that conflict of interests, whispering wood
procedural flaws, and planning boards that approve an
application that is admittedly a public safety hazard is no
longer arbitrary, capricious, and ultra vires. Perhaps the court
also needs to address the role of an applicant in a complaint
in lieu of a prerogative writ action, because as Judge Miller
stated at the Case Management Conference (P 23), a land use
applicant generally has an interest in a prerogative writ
action, but if the Court deems a party can sue the municipal
agency only, and pot have to serve the applicant, the result
c^n be a nul| and void determination resulting in an
injunction. The court should sp announce ancj save parties the
expense of attempting to serve the complaint on m
organization wjiose registered agent is evasive to service, as
occurred here. Since it appears Judge Miller did not read his
statement of reasons, it is pot deppif he appreciated the
ramifications of another party having access to your personal
email, and while a Human Resources department may not be
able to arbitrarily have access to your personal emails, when
they are disclosed a s result of discovery, as was sought here
if the case was not settled, settling a case to avoid having to
disclose and litigate your personal email should be sufficient
interest to realize there is a problem. It also seems the Trial
Court is opt of touch with conflict of interest case law, as to
the extent Piscitelli holds a boarcl approval of a land use

A 35

application is null and void, for the court to suggest that is
irrelevant is bizarre at best. Accordingly, the trial court
granting of ISBfCs motion to dismiss should be reversed.
8. Upder Moptclair State University v. Countv of Passaic.
234 N.J. 434 (2018), a local municipal planning board
must consider the traffic safety impact of a land use
application pp an adjoining road, even if that roadway is
a “county road”, and if not, the MLUL is
unconstitutional?
In the instant matter, defendants repeatedly argued that
the planning board could not consider the impact of the
development on the local roads, because the road that
adjoined the construction is a county road. Conversely, in
Montclair State University v. County of Passaic. 234 N.J.
434 (2018), a local municipal planning board must consider
the traffic safety impact of a land use application on an
adjoining road, even if that roadway is a “county road”, and
if not, the MLUL is unconstitutional. Defendants claim the
holding only applies to certain parties, but the same basic
principles should hold true to all planning board applications.
9. Under Piscitelli, Dunbar and In Re Accutane, the current
interpretation Whispering Woods at Bamm Hollow. Inc,
v. Middletown Tp. Planning Board. 223 N.J. Super. 1,
(NJAD 1987) cert denied 110 N.J. 175 (198.8) needs to
be revisited by the New Jersey Supreme Court because it
is being unconstitutionally applied, and alternatively, the
NJ MLUL is unconstitutional if a “Whispering Woods”
hearing can circumvent the principles in the statute?
What a Whispering Woods hearing stands for is a good
question, because form the surface, it is an unconstitutional
vague concept. A common practice for planning boards is to
just publish a notice “whispering woods hearing to be
held”... Then as here, like a football game, the board
attorney can call an “audible” as the line of scrimmage, and
change the playbook. Here, the Planning Board attorney
changed the “play” at the time of scrimmage, and read off
whatever was convenient to him. August 8, 2017 Transcripts

A 36

P 4-7. Plaintiff objected to the vague read out. Id. at 83. In
addition, whispering woods is defective or unconstitutionally
applied as here when a board member raises a conflict
interest. Id. at 95, and whispering woods does not allow an
adjournment to resolve the conflict of interest. (Here Board
attorney stated the conflict of interest has to be resolved j?y a
court of law.) Furthermore, as here the Board professional
state the plans conform witji a settlement and not MLUL
land use principles, that are echoed by the Board members
finding the appreciation problematic, and even the Township
Press release also finding the approve plans are not consistent
with the MLUL. the reality of a decision from a so-called
Whispering Woods Hearings, based on conflicted Board
members needs to be revisited by the Supreme court.
Cpnflicted Board members negates the concept that if “takes
at least to negotiate” when here, because of the conflicted
members, an acknowledged defective land use application
was approved.
10. Under Dunbar Homes. Inc, v. Zoning Board of
Adjustment of Township of Franklin. 233 N.J. 5456
(2018), is a planning board approval of a sham land use
application null and void and if not, is the NJ MLUL
unconstitutional?
This Court has repeatedly stated that local citizens have
due process rights to amend planning board meetings.
(Citation omitted.) Ironically even Bernards Township in a
November 18, 2016 press release expressed concerns on its
citizen’s due process rights as a result of ISBR’s sham
application. What is more fundamental to due process is
efficiency, and in land use application under Dunbar, it is to
dispose of sham and deceptive land use applications. In the
instant matter, ISBR deceived the Board on its land use
application related to an easement that was necessary to
provide sewer. There is a list of all the admissions by ISBR
and its counsel that it lacked a legally cognizable interest in a
sewer easement that was a fundamental aspect of its land use
application that was a similar application requirement in

A 37

Dunbar. The Board counsel went as far to state that a
Superior Court must determine whether ISBR had a legal
interest in a sewer. Then counsel indicated that the MLUL,
prohibited the Board from undoing or reversing a mistaken
completeness review. Judge Miller and opposing counsel
somewhat complained, where is the reference to the
completeness review in the MLUL? (Citation omitted.)
However, it appears clear from the Court’s oral argument in
Dunbar that the phrase itself does not exist in the MLUL,
protection, and according the Court should find the planning
board approval of ISBR’s sham land use application is null
and void or alternatively, the New Jersey MLUL is
unconstitutional that such a defective land use application
could span the number of meetings that this application
consumed. (At the same time the court needs to give
guidance when community centers are community centers, as
here.)
11. Under In Re Accutane Litigation. 234 N.J. 340 (2018), is
a planning board approval of a land use application that
was based on incompetent testimony, null and void, and
if not, is the MLUL unconstitutional?
The standards for expert testimony was tightened in In Re
Accutane and has since been applied to a number of subject
areas including the Solberg Airport and that net opinions
should be excluded in a Tax Court. Palisadium Management
Corn, v. Borough of Cliffside Park. 456 N.J. Super 293
(N.J.A.D. 2018). As stated in the complaint Paragraphs 63
and 64, ISBR witness testimony was unreliable as it included
coaching of witnesses, and ISBR testimony lacked qualified
expert witnesses as its traffic expert testified against his
client, and ISBR never submitted a qualified traffic expert
witness. Even the planning Board memorialized that ISBR
substitute was not qualified to testify on so many aspects of
the land use application. (See e.g., Page 19 January 19, 2016
Resolution Memorializing Denial of Preliminary and Final
Site Plan approval, Pa 163, Appendix 4 of 4, Motion and
Appendix in support of a stay of the Orders below and a

A 38

Temporary Injunction.) Accordingly, the Court should find
approval of the applicable land use null and void, and if not,
the MLUL, is unconstitutional under individuals to
participate in planning board hearings, allowing a circus of
unqualified experts infringes on those due process rights.
12. Under Cherokee LCP Land, LLC v. City of Linden
Planning Board. 234 NJ. 403 (2018), is a township
resident similarly situated to plaintiff have standing in the
instant matter?
In Cherokee, the Court acknowledged New Jersey has
perhaps the most liberal approach to standing of any
jurisdiction. In Cherokee, the Court ruled that standing
extends to those why do not receive “statutory notice” under
the Municipal Land Use Laws (MLUL). Based on the record,
it is clear that plaintiff would be equally harmed by the
public health and safety hazards acknowledged in the
Board’s approval of the ISBRE land use application. Here the
record shows that plaintiff has a sufficient interest for
plaintiff to have standing. This included fact plaintiff lived
within one mile of the subject property, defendants consented
to this party’s right cross examine witnesses during the
hearing, present evidence, and raise objections (references
omitted, and that the plaintiff is a member in a volunteer
organizations within 200’ of the subject property (Pa 1-2,
Mary 23, 2019 Plaintiff Letter Memorandum and Appendix,
7 of 13 Appellate Division Brief and Appendix.) This
included as noted above ISBR’s counsel asking that the
board enter into the record, Barth’s objection to the
opportunity to review the site application within the time
requirements, and Barth’s noted concerns of conflict of
interest among voting Board members that participated in the
Whispering Woods hearing. Accordingly, under Cherokee
and New Jersey liberal approach to standing, plaintiff has
standing in this instant matter. Alternatively, the MLUL,
rules are unconstitutional under the Fourteenth Amendment
to the United States Constitution.

REASONS CERTIFICATION SHOULD BE GRANTED

A 39

Certification should be granted based on existing case
law and statutes, and if any area is currently silent, new case
law should be established as precedent.
COMMENTS WITH RESPECT TO THE APPELALTE
DIVISION OPININO
Respectfully, there is no appellate division opinion to
comment. The silent appears a basis to grant certification.
CONCLUSION
For the foregoing reasons, Appellant respectfully
request that this court grant certification.
Respectfully submitted
Dated: September 26,2019
Michael S. Barth
P.O. Box 832
Far Hills, New Jersey, 07931
CERTIFICATION PURSUANT TO R. 2:12-7 (a)
Tis Revised Petition for Certification presents a
substantial question and is filed in good faith and not for the
purposes of delay. I certify that the foregoing statements
made by me are true. I am aware that if any of the foregoing
statements made by me are willfully false, I may be subject
to punishment.
Dated: September 26, 2019
Michael S. Barth

A 40

SUPREME COURT OF NEW JERSEY
NO-083394
MICHAEL S BARTH
Petition For Certification
To The Supreme Court of NJ
Plaintiff-Appellant,
Appellate Division
Docket No. A-00744-18T3
v.
SAT Below:
Hon. Carmen A. Alvarez
BERNARDS TOWNSHIP Hon. Hany A. Mawla
PLANNING BOARD AND Hon. Carmen Messano
ISLAMIC SOCIETY OF
BASKING RIDGE, INC.
Defendants-Respondents.
BRIEF AND APPENDIX
FOR PETITION AND CERTIFICATION AND
MOTION FOR A PRELIMINARY INJUNCITON
Michael S. Barth, Plaintiff-Appellant
P.O. Box 832
Far Hills, New Jersey 07931
(917) 628-6145
August 26, 2019

A 41

TABLE OF CONTENTS
Table of Authorities......................................
iii
Table of Content to Appendix......................
m
Table of Contents in Briefs’ and Appendixes
111
Questions Presented
QUESTIONS PRESENTED
1. Did the ACMS “go fish” service of process violate
federal and New Jersey constitutional protections?
2. Is “5 minute” notice of oral arguments adequate when
parties were previously notified there would be no oral
arguments?
3. Isa trial court Judge that signs an Order and does not
read his own supporting opinion prima facie evidence of
judge bias, and null and voids the judge’s Order?
4. Did the Appellate Division and abuse its discretion to
facilitate Defendants’ Motion to Dismiss?
5. When the Appellate Division dismissal of plaintiffs
appeal was based on plain legal error, and the Division
refused to provide a reason for dismissing plaintiffs
appeal, is the Division’s refusal to reinstate the appeal an
unlawful abuse of discretion under other New Jersey case
law?
6. Under Piscitelli v. City of Garfield Zoning Board of
Adjustment 237 N.J. 333 (2019), is the conflicted
planning board decision before null and void or warrants
additional discovery?
7. Is the Order Granting ISBR Motion to Dismiss for
Failure to State a Claim defective?
8. Under Montclair State University v. County of Passaic,
734 N.J. 434 (2018), a local municipal planning must
consider the traffic safety impact of land use application
on an adjoining road, even if that roadway is a “county
road”, and if not, the MLUL unconstitutional?
9. Under Piscitelli. Dunbar, and In Re Accutane, the current
interpretation Whispering Woods at Bamm Hollow. Inc,
v. Middletown Tp. Planning Board. 223 N.J. Super. 1,
(NJAD 1987), cert denied 110 N.J. 173 (1988) New

A 42

Jersey Supreme Court because it is being
unconstitutionally applied, and alternatively, the NJ
MLUL is unconstitutional if a “Whispering Woods”
hearings can circumvent the principles in the statute?
10. Defendant will not suffer any irreparable harm from a
temporary injunction.
11. Under Dunbar Homes, Inc, v. Zoning Board of
Adjustment of Township of Franklin. 223 N.J. 546
(2018), is a planning board approval of a sham land use
application null and void and if not, is the NJ MLUL
unconstitutional?
12. Under In re Accurate Litigation. 234 N.J. 340 (2018), is a
planning board approval of a land use application that
was based on incompetent testimony, null and void, and
if not, is the MLUL is unconstitutional?
13. Under Cherokee LCP Land, LLC v. City of Linden
Planning Board. 234 N.J. 403 (2018), is a township
resident similarly situated to plaintiff have standing in the
instant matter?
14. A Preliminary Injunction is consistent with Piscitelli.
Dunbar. In re Accutane, among others.
15. Stay Pending Appeal to the United States Supreme Court.
Reasons Why Certification Should be Granted
11
Conclusion......................................................
27
Table of Authorities
Constitutional Authorities
United States Constitution Fourteen Amendment........
13
New Jersey Constitution Articles................................ 1, 13
Case Law Authorities
Cherokee LCP Land, LLC., V. City of Linden Planning
Board, 234 N.J. 403 (2018).......................................... 25
Dunbar Homes, Inc. v. Zoning Board of Adjustment of
Township of Franklin, 233 N.J. 246 (2018) .... 21-23, 26
Ghandi v. Caspedez, 390 N.J. 193 (NJAD 2007)
14
In Re Accutane Litigation, 234 N.J. 340 (2018)
24,26
ISBR v. Township of Bernards, 226 F. Supp. 3d 320 (2016).4

A 43

Montclair State University v. County of Passaic, 234 N.J.
434 (2018)........................................................................ 19
Palisadium Management Corp. v. Borough of Cliffside Park,
456N.J. Super. 293 (NJ.A.D. 2018)
24, 26
Piscitelli v. City of Garfield Zoning Board of Adjustment,
237 N.J. 333 (2019)
8-9,15-17,21
Plaza v. Bernards Township Planning Board, 2018 WL
3637515 (D.NJ. 2018)
5
Smith v. Twp of Bernards, 2017 WL 5892202 (DNJ 2017). 5
U.S. v. Decker, 957 F.2d 773, 777 (CA8 1992)........
13
Waste Management of New Jersey v. The Union City
Utilities Authority 399 N.J. Super. 508 (NJ.A.D. 2008).. 20
Wawa Inc. v. Tw. of Westhampton, 182 NJ. 626 (2003). 13
Whispering Woods at Bamm Hollow, Inc. v. Middletown
\Tp. Planning Board223 N.J. Super. 1 (NJAD 1987) cert
denied 110 N.J. 1U75 (1988)
21
Statutes
MLUL, Municipal Land Use Legislation
NJ.S.A. 40:55-d-40.4 et seq................................... 2, 22-23
RLUIPA, Religious Land Use and Institutionalized
Persons Act, 42 USC 2000cc et seq........................
1
ARTICLES
Bernards Township Official urged to yes vote on Mosque,
then voted no, Bemardsville News, October 19, 2017 .... 17
Table of Content to Appendix
1. August 19, 2019 [AMENDED] Notice of Appeal and
Petition for Certification
2. May 24, 2019 New Jersey Supreme Court Order May 24,
2019 denying motion to stay the Appellate Division’s
briefing schedule as moot.
3. July 31, 2019 Appellate Divisions’ July 30, 2019
ORDER denying Motions: to file pleadings of July 2,
2019 as within time, extend Time to File Pleadings of
July 2, 2019 reconsideration of the appellate divisions
June 12, 2019 Orders, file June 17 2019 pleadings as
within time, extend the time to file the June 3, 2019 file
the June 3,2019 Brief and Appendix, Reinstate Appeal.

Ts

A 44

4. June 12, 2019 Order Granting [Joint] Motion to Dismiss
appeal [WITHOUT PREJUDICE] for Failure to
Prosecute.
5. June 12, 2019 ORDER Denying Motion for
Reconsideration; Denying Motion to File as Within time
a Motion for Reconsideration.
6. February 8, 2019 NJAD Order denying Appellant Motion
Staying Briefing Schedule
7. November 19, 2018 DENY Motion stay and a
preliminary injunction pursuant to R 2:8-1.
8. October 27, 2018 Amended Notice of Appeal
10. Civil Case Information Statement
11. Jim 7, 2019 Defendant opposition based plain legal error
12. May 1, 2013 Appellate Division Letter Motion for
reconsideration after 10-day period.
15. ACMS Case Summary - SOM L - 00123-17
18. October 12, 2018 Order granting ISBR dismiss
Complaint fail to state claim
19. October 12, 2018 Order denying Barth Order to Show
Cause
20. October 12, 2018 Order granting Bernards’ Motion for
Summary Judgment
22. October 15, 2018 Amended Order granting Bernards
Motion for Summary Judgement.
24. October 15, 2018 Amended Order denying Barth Order
to Show Cause
25. October 24, 2018 [SECOND] Amended Order granting
Bernards Motion for Summary Judgement
27. September 11, 2018 Plaza letter to Bernards Township
Planning Board
29. June 5, 2019 DEFENDANTS’ motion to dismiss appeal
WITHOUT PREJUDICE for lack of prosecution.
37. Bernards Township Construction Permits for 124 Church
street as of August 22,2019
39. May 30, 2017 Bernards Township Press Release
42. November 18, 2016 Bernards Press Release

